March 2008
Report No. AUD-08-006


FDIC’s Replacement and Disposal
Process for Laptop Computers




            AUDIT REPORT
                                                 Report No. AUD-08-006                                          March 2008

                                                 FDIC’s Replacement and Disposal Process
                                                 for Laptop Computers
  Federal Deposit Insurance Corporation


Why We Did The Audit                             Audit Results

The objective of the audit was to                The FDIC established and implemented generally adequate controls over
determine whether the FDIC had                   the replacement and disposal process for laptop computers. Specifically,
established and implemented adequate             we noted that the FDIC had implemented a consistent and complete
controls over the replacement and                deployment of laptop computers during 2007 in each of the offices we
disposal process for laptop computers.           reviewed. Further, DIT personnel at each location we visited maintained
                                                 documentation in accordance with the DIT Guidelines. All 3,905 laptop
                                                 computers purchased by the FDIC were received and recorded in the
Background                                       FDIC’s Remedy® laptop inventory within the timeframes established by
                                                 DIT. Finally, as stipulated in the new laptop purchase order, the FDIC
During 2007, the FDIC purchased 3,905            received a discount for its used laptop computers.
Lenovo T60 Thinkpad laptop computers
and related hardware for a total cost of         We also found that opportunities exist for the FDIC to enhance controls
approximately $7.8 million. The new              for the continuous replacement and disposal process for laptop computers
laptops would provide FDIC employees             in the following areas. It is important to note that the FDIC will continue
with faster system/software perform-             to replace malfunctioning computers.
ance, extended battery life, increased
disk storage space, and a larger display               •   FDIC Circular 1380.3 does not reflect the current business
screen. In addition, the new laptops                       environment for managing the FDIC’s laptop computer
include Pointsec for PC (Pointsec)
                                                           inventory and does not define the FDIC’s policy for the
encryption software to enhance the
security of corporate data. The FDIC’s                     disposal of laptop computer hard drives. This limits the
Division of Information Technology                         FDIC’s assurance that its laptop computer inventory, including
(DIT) was responsible for the 2007                         hard drives that may contain sensitive information, are
laptop deployment project.                                 effectively managed.

FDIC Circular 1380.3, Laptop Computer                  •   Current hard drive destruction practices present a risk that a
Assignments, Safeguards, and Asset                         computer hard drive could be lost and subject to unauthorized
Management, dated April 1999,                              access.
establishes policies and procedures for
managing FDIC-owned laptop                             •   Remedy® lacks sufficient access controls to ensure that
computers throughout their life cycle. In                  complete and accurate inventory records are maintained for the
addition, in July 2007, DIT issued                         FDIC’s laptop computers and does not track replacement laptops
Guidelines for New Laptop Deployment                       for malfunctioning computers. These control deficiencies limit
(DIT Guidelines), which provides                           the FDIC’s assurance regarding the integrity of its laptop
detailed procedures for the replacement                    computer inventory.
and disposal of laptops, including
procedures for the disposition of the
hard drives from used laptops in order to        Recommendations and Management Response
protect sensitive data they may contain.
                                                 We recommended that FDIC management (1) update Circular 1380.3 to
An inventory of laptop computers                 reflect the FDIC’s current business environment for managing its laptop
owned by the FDIC is maintained in the           computer inventory and to define policy for the disposal of hard drives;
FDIC’s Remedy® Asset Management                  (2) implement additional measures that mitigate the risk of a computer
Module. DIT used Remedy® to track                hard drive being lost during the destruction process and subject to
the deployment of the new laptop                 unauthorized access; and (3) establish procedures to track and record the
computers and the collection of used             replacement of laptop computers returned to the vendor for replacement
laptops.                                         or service. Management concurred with our recommendations and is
                                                 taking responsive corrective actions.

To view the full report, go to www.fdicig.gov/2008reports.asp
Contents                                                            Page


BACKGROUND                                                            1
  Guidance Related to Laptop Computers                                2
    DIT Guidelines on Laptops                                         2
    FDIC Policies and Procedures Related to Laptops                   2
    Federal Law and Guidelines                                        3
  The FDIC’s Laptop Deployment Process                                3

RESULTS OF AUDIT                                                      5

FDIC POLICIES AND PROCEDURES FOR MANAGING THE                         6
LAPTOP COMPUTER INVENTORY
  Changes in the FDIC’s Business Environment and Procedures for       6
  Managing Laptop Computers
  Laptop Computer Hard Drives                                         7
  Recommendation on FDIC Policies and Procedures for Managing the     7
  Laptop Computer Inventory

HARD DRIVE DESTRUCTION PRACTICES                                      7
 Current Destruction Process for Hard Drives                          7
 Plans for Destroying Additional Hard Drives                          8
 Recommendation on Hard Drive Destruction Practices                   8

THE FDIC’s ASSET MANAGEMENT MODULE                                    8
  Data Controls in the Remedy® Inventory System                       9
  Laptops Returned to the Vendor                                      9
  Recommendation on Procedures for Tracking Replacement Laptops      10

CORPORATION COMMENTS AND OIG EVALUATION                              10

APPENDICES
  1. OBJECTIVE, SCOPE, AND METHODOLOGY                               11
  2. CORPORATION COMMENTS                                            14
  3. MANAGEMENT RESPONSE TO RECOMMENDATIONS                          16

TABLE
  Summary of Control Enhancements Needed                              5

FIGURES
  1. Hard Drive Destruction at the Recycling Facility                 2
  2. The FDIC’s 2007 Replacement and Disposal Process for Laptop      4
     Computers
    Federal Deposit Insurance Corporation                                                               Office of Audits
    3501 Fairfax Drive, Arlington, VA 22226                                                Office of Inspector General


    DATE:                                     March 12, 2008

    MEMORANDUM TO:                            Michael E. Bartell
                                              Chief Information Officer and
                                              Director, Division of Information Technology


                                              /Signed/
    FROM:                                     Russell A. Rau
                                              Assistant Inspector General for Audits

    SUBJECT:                                  FDIC’s Replacement and Disposal Process for Laptop
                                              Computers (Report No. AUD-08-006)


    This report presents the results of the subject audit. The FDIC’s Division of Information
    Technology (DIT) was responsible for the 2007 laptop computer deployment project to
    upgrade the FDIC’s laptop computer inventory. The objective of the audit was to
    determine whether the FDIC had established and implemented adequate controls over the
    replacement and disposal process for laptop computers. We conducted this performance
    audit in accordance with generally accepted government auditing standards. Appendix 1
    of this report discusses our audit objective, scope, and methodology in detail.


BACKGROUND

    Under a contract with SRA International, Inc. (SRA), the FDIC purchased 3,905 Lenovo
    T60 Thinkpad laptop computers and related hardware from World Wide Technology, Inc.
    (WWT) for a total cost of approximately $7.8 million. The new laptop computers
    provide FDIC employees with faster system/software performance, extended battery life,
    increased disk storage space, and a larger display screen. In addition, the new laptop
    computers were deployed with Pointsec for PC (Pointsec) 1 encryption software to
    enhance the security of corporate data. Under the laptop computer purchase order, the
    FDIC received a discount for trading in its used laptop computers, without the hard
    drives.




    1
     Pointsec encrypts all data on the laptop computer’s hard drive as a safeguard in the event the laptop is lost
    or stolen.
      A record of all laptop computers owned by the FDIC is maintained in Remedy®, 2 which
      also includes the assignment history of the laptops. DIT used Remedy® to track the
      deployment of the new laptop computers and the collection of the used laptops.


Guidance Related to Laptop Computers

      DIT Guidelines on Laptops. In July 2007, DIT issued Division of Information
      Technology Guidelines for New Laptop Deployment (DIT Guidelines), which provides
      detailed procedures for the replacement and disposal of laptop computers. The DIT
      Guidelines also provide procedures for the storage and destruction of the hard drives
      from used laptops in order to protect sensitive data the hard drives may contain.
      Specifically, the DIT Guidelines state that the DIT Distribution Center (DDC) is
      responsible for ensuring that used laptop computer hard drives are destroyed by
      shredding. At the time of our audit, DDC personnel were destroying laptop computer
      hard drives by transporting them to a suburban Washington, D.C., recycling facility
      where the hard drives were placed into an automobile that was then crushed and fed into
      an industrial shredding machine (see Figure 1 below). DDC personnel are to remain on-
      site to witness the shredding.

      Figure 1: Hard Drive Destruction at the Recycling Facility




      Source: OIG observation of the hard drive destruction at the recycling facility.



      FDIC Policies and Procedures Related to Laptops. The FDIC has established the
      following policies and procedures that relate to the replacement and disposal process for
      laptop computers:

          •    FDIC Circular 1380.3, Laptop Computer Assignments, Safeguards, and Asset
               Management, dated April 13, 1999, establishes policies and procedures for
               managing FDIC-owned laptop computers throughout their life cycle.



      2
       Remedy® consists of a suite of applications used for incident, problem change, service-level, and asset
      management. DIT uses the Asset Management Module of Remedy® to track laptop computers.


                                                            2
          •   FDIC Circular 3200.1, Disposition of Corporation-Owned Property, dated
              August 25, 2004, establishes procedures for ensuring that Corporation-owned
              property is reallocated and/or disposed of in a uniform and effective manner; and

          •   FDIC Circular 1360.9, Protecting Sensitive Information, dated April 30, 2007,
              establishes policy on protecting sensitive information stored on FDIC laptop
              computers.


      Federal Law and Guidelines. The following summarizes federal guidance related to the
      destruction of laptop computer hard drives.

          •   The Federal Information Security Management Act of 2002 (FISMA) defines
              federal agency responsibilities for information security, including assessing risks
              associated with, among other things, the unauthorized access to information
              systems, which includes information technology (IT) equipment. 3 This provision
              of FISMA requires that federal agencies develop, document, and implement
              policies and procedures that cost-effectively reduce such information security
              risks to an acceptable level.

          •   The National Institute of Standards and Technology (NIST) issued guidelines that
              federal agencies should consider in relation to information system security. 4
              NIST Special Publication (SP) 800-88, Guidelines for Media Sanitization, dated
              September 2006, provides guidelines for organizations to make practical
              sanitization decisions based on the level of confidentiality of their sensitive
              information. NIST SP 800-88 recommends the destruction of hard drives
              containing sensitive information by disintegrating, shredding, pulverizing, or
              incinerating. Additionally, NIST SP 800-53 Revision 1, Recommended Security
              Controls for Federal Information Systems, dated December 2006, recommends
              among other things, that organizations employ appropriate sanitization techniques
              for their information system media.


The FDIC’s Laptop Deployment Process

      The FDIC’s laptop computer deployment process consisted of retrieving used laptops
      from FDIC users, migrating user data, configuring new laptops, and removing hard drives
      from the used laptops. DIT developed a laptop computer deployment schedule using
      Remedy®, which identified users at each FDIC site. At the FDIC’s headquarters
      buildings, 5 DIT oversaw the laptop computer deployment, which was conducted by SRA
      personnel. DIT personnel conducted the laptop computer deployment at the FDIC’s

      3
        The FDIC has determined that the provision of FISMA at issue here is legally binding on the FDIC.
      4
        NIST special publications are, by their own terms, guidelines (rather than mandatory requirements) for
      agencies in implementing their IT operations.
      5
        Headquarters includes two buildings in Washington, D.C., and the Virginia Square buildings in Arlington,
      Virginia.


                                                          3
 regional and field offices. Figure 2 below further illustrates the FDIC’s 2007
 replacement and disposal process for laptop computers.

           Figure 2: The FDIC’s 2007 Replacement and Disposal Process for
                              Laptop Computers


                             The DDC receives a list of serial numbers from
                              WWT for new laptops shipped to the FDIC’s
                                              locations.




                                       The DDC updates Remedy®
                                       with the serial numbers for
                                              new laptops.
SRA/DIT installer                                                                   DIT/SRA
and the FDIC user                                                                   personnel update
complete and sign                                                                   the laptop
a hand bill receipt.                                                                deployment.

                            At deployment date, the used laptop is removed,
                              and a new laptop is provided to the user. The
                             hard drive from the used laptop is removed and
                               stored for 120 days in the event the data are
                            needed. The used laptop is then shipped to DDC.         SRA/DIT
                                                                                    personnel create
SRA/DIT                                                                             the hard drive
personnel                                                                           schedule that
conducting the                                                                      identifies the
laptop deployment                                                                   hard drive serial
update Remedy®                DDC ships used laptops to the asset recovery          number, laptop
using the hand bill            servicer for credit and updates Remedy®.             serial number,
information.                                                                        user name, and
                                                                                    hard drive
                                                                                    removal and
                                                                                    destruction dates.
                             After 120 days, DIT personnel in the regional/
                             field offices drill four holes into the hard drives
                             prior to shipping them to the DDC in order to
                             provide added security in the event a hard drive is
                             lost during shipment.




                              DDC personnel take all hard drives (those from
                              headquarters locations and those shipped from
                              regional/field offices) to a recycling facility for
                              shredding. Then, DDC personnel update the hard
                              drive inventory in Remedy®.



                                               4
RESULTS OF AUDIT

    The FDIC established and implemented generally adequate controls over the replacement
    and disposal process for laptop computers. Specifically, we noted that the FDIC had
    implemented a consistent and complete deployment of laptop computers during 2007 in
    each of the offices we reviewed and that DIT personnel at each location we visited
    maintained documentation in accordance with the DIT Guidelines. 6 In addition, all 3,905
    laptop computers purchased by the FDIC were received and recorded in the FDIC’s
    Remedy® laptop inventory within the timeframes established by DIT. Further, as
    stipulated in the new laptop purchase order, the FDIC received a discount for its used
    laptop computers. Such results are positive. However, opportunities exist for the FDIC
    to enhance its controls for the continuous replacement and disposal process for laptop
    computers (see the table below). It is important to note that the FDIC will continue to
    replace malfunctioning computers.

    Summary of Control Enhancements Needed
                         Control Issue                                   Enhancement Needed
    FDIC Circular 1380.3, Laptop Computer                     Update Circular 1380.3 to reflect the
    Assignments, Safeguards, and Asset Management,            FDIC’s current business environment for
    does not reflect the FDIC’s current procedures for        managing its laptop computer inventory and
    managing laptop computers, including hard drives, or      to define policy for the disposal of hard
    DIT’s current business environment. In addition,          drives.
    Circular 1380.3 does not define the FDIC’s policy for
    the disposal of laptop computer hard drives. The lack
    of current policies and procedures in these areas
    limits the FDIC’s assurance that its laptop computer
    inventory, including hard drives that may contain
    sensitive information, are effectively managed
    (FDIC Policies and Procedures for Managing the
    Laptop Computer Inventory).

    Current hard drive destruction practices present a risk   Implement additional measures that
    that a computer hard drive could be lost and subject      mitigate the risk of a computer hard drive
    to unauthorized access (Hard Drive Destruction            being lost during the destruction process
    Practices).                                               and subject to unauthorized access.

    Remedy® lacks sufficient access controls to ensure        Implement access controls and establish
    that complete and accurate inventory records are          Remedy® procedures to track and record
    maintained for the FDIC’s laptop computers.               the replacement of laptop computers
    Further, Remedy® does not track replacement               returned to the vendor for service.
    laptops for malfunctioning computers. These control
    deficiencies limit the FDIC’s assurance regarding the
    integrity of its laptop computer inventory (The
    FDIC’s Asset Management Module).



    6
     We tested the laptop computer deployment process at FDIC locations in Arlington, Virginia;
    Washington, D.C.; Atlanta, Georgia; New York, New York; Chicago, Illinois; and Madison, Wisconsin.


                                                      5
FDIC POLICIES AND PROCEDURES FOR MANAGING THE LAPTOP COMPUTER
INVENTORY

      The FDIC issued Circular 1380.3, Laptop Computer Assignments, Safeguards, and Asset
      Management, dated April 13, 1999, for the purpose of establishing policies and
      procedures for all FDIC-owned laptop computers throughout their life cycle. However,
      the circular does not reflect the FDIC’s current business environment for managing its
      laptop computer inventory. In addition, Circular 1380.3 does not define the FDIC’s
      policy for the disposal of laptop computer hard drives. The lack of current policies and
      procedures in these areas limits the FDIC’s assurance that its laptop computer inventory,
      including hard drives that may contain sensitive information, are effectively managed.


Changes in the FDIC’s Business Environment and Procedures for Managing Laptop
Computers

      Circular 1380.3 does not reflect the FDIC’s current business environment or procedures
      for managing laptop computers. For example, Circular 1380.3:

         •   References the Information Technology Asset Management System (ITAMS) as
             the FDIC’s laptop inventory system. However, ITAMS was replaced by
             Remedy® in June 2004.

         •   Requires that all laptops moved in and out of FDIC facilities be inspected by
             FDIC security personnel. However, according to FDIC Security and Emergency
             Preparedness officials, this practice has been discontinued for FDIC employees.

         •   Requires equipment authorization tags to be fastened to the outside of laptop
             computer cases and to be visible at all times. However, this practice is no longer
             employed.

         •   Assigns the responsibility for periodic and annual inventories nationwide to the
             Chief, Logistics Management Section, to ensure the accuracy of inventory records
             for all FDIC-owned laptops. However, this position no longer exists, and no other
             FDIC circular assigns this responsibility.

         •   References the Division of Information Resources Management (DIRM), which
             was restructured as DIT in 2005.




                                                  6
Laptop Computer Hard Drives

      The DIT Guidelines that were developed specifically for the 2007 replacement and
      disposal of laptop computers contain detailed procedures to safeguard hard drives
      removed from laptop computers. However, Circular 1380.3 does not address the FDIC’s
      policy for the disposal of hard drives. During our review of the 2007 laptop deployment,
      DIT officials informed us that ensuring control over hard drives was a major concern
      because of sensitive information they may contain. The FDIC can achieve greater
      assurance regarding the disposal of computer hard drives and promote adherence to NIST
      security guidelines by addressing the disposal of hard drives in corporate policy.


Recommendation on FDIC Policies and Procedures for Managing the Laptop Computer
Inventory

      We recommend that the Chief Information Officer (CIO):

      (1) Update Circular 1380.3 to reflect the FDIC’s current business environment for
          managing its laptop computer inventory and to define policy for the disposal of hard
          drives.


HARD DRIVE DESTRUCTION PRACTICES

      DIT disposed of laptop computer hard drives from the 2007 laptop deployment effort by
      transporting them to a suburban Washington, D.C., recycling facility for destruction.
      However, many of the hard drives had not been drilled, as a security precaution, prior to
      their transport to the recycling facility, presenting a risk that a computer hard drive could
      be lost during the destruction process and subject to unauthorized access.


Current Destruction Process for Hard Drives

      Consistent with FISMA, NIST Special Publication 800-53 Revision 1, Recommended
      Security Controls for Federal Information Systems, recommends that organizations
      employ appropriate sanitization techniques for their information system media to prevent
      the disclosure of organizational information to unauthorized individuals when such media
      are reused or disposed of.

      On January 15, 2008, we accompanied an SRA employee to the recycling facility to
      observe the destruction of approximately 200 laptop computer hard drives. According to
      the SRA employee, these hard drives were from FDIC headquarters, regional, and field
      offices. DIT Guidelines require that hard drives from regional and field offices be drilled
      prior to shipment to the DDC. However, DIT Guidelines do not require that hard drives
      removed from laptops in headquarters offices be drilled prior to being transported for
      shredding. The destruction process at the recycling facility involved placing the



                                                    7
      computer hard drives into cardboard boxes and then placing the boxes into an automobile
      that was about to be destroyed. An industrial crane was then used to compact the
      automobile and transport it to a conveyer belt, which then fed the automobile into an
      industrial shredder. However, as the automobile was being transported to the conveyer
      belt, we observed what appeared to be hard drives falling out of the automobile onto a
      large trash heap in the recycling facility’s scrap yard. Because many of the hard drives
      had not been drilled prior to being placed in the automobile, there is a risk that one or
      more of them may not have been destroyed and could be lost and subject to unauthorized
      access.


Plans for Destroying Additional Hard Drives

      DIT recently deployed Pointsec, which automatically encrypts sensitive information
      stored on laptop computer hard drives. Pointsec significantly reduces the risk of a
      compromise of sensitive information whenever a laptop computer is lost or stolen.
      However, the computer hard drives destroyed on January 15, 2008 were removed from
      laptop computers that did not have the automatic encryption software. As a result, these
      laptop computer hard drives may have contained sensitive information in an unencrypted
      format. DIT plans to destroy a large number of other laptop computer hard drives, in the
      near future, that may also contain sensitive information in an unencrypted format.
      Accordingly, DIT should implement additional measures to mitigate the risk of a
      computer hard drive being lost during the destruction process and subject to unauthorized
      access. In this manner, the FDIC can reduce the risk of an unauthorized disclosure of
      sensitive information that could lead to potential legal liability or public embarrassment
      to the Corporation.


Recommendation on Hard Drive Destruction Practices

      We recommend that the CIO:

      (2) Implement additional measures that mitigate the risk of a computer hard drive being
          lost during the destruction process and subject to unauthorized access.


THE FDIC’s ASSET MANAGEMENT MODULE

      The FDIC uses the Remedy® Asset Management Module to manage its inventory of
      laptop computers. However, Remedy® lacks sufficient access controls to ensure that
      complete and accurate inventory records are maintained for the FDIC’s laptop computers.
      In addition, Remedy® does not track replacement laptop computers when a
      malfunctioning laptop, assigned to a user, is returned to the vendor for service. As a
      result, the FDIC cannot ensure the effective accountability for, and control of, laptop
      computers.




                                                  8
Data Controls in the Remedy® Inventory System

      During the 2007 laptop computer deployment, personnel who conducted the laptop
      replacement had unrestricted access to the laptop asset record in Remedy®. Specifically,
      13 SRA employees in the FDIC’s headquarters offices and at least 40 DIT personnel at
      FDIC regional and field offices could edit inventory records in Remedy® related to the
      laptop inventory without authorization or supervisory review. Further, DIT personnel in
      the regional and field offices stated that without their knowledge, inventory records could
      be modified by DIT personnel in Washington, D.C. NIST SP 800-53 Revision 1,
      Recommended Security Controls for Federal Information Systems, 7 dated December
      2006, includes recommended security controls for federal information systems to enforce
      the separation of duties through assigned access authorizations.

      To DIT’s credit, it had identified concerns related to Remedy® and its IT asset inventory
      processes prior to our audit. To address these concerns, DIT contracted with an
      independent firm to conduct a review of the Corporation’s IT asset management
      processes. The firm reported to DIT in January 2008, 8 that Remedy® does not contain
      adequate controls over changes in IT asset records. The report states that Remedy® roles
      should be restricted based on the principle of least privilege. 9 To compensate for the lack
      of access control, the firm recommended that asset record changes be saved and held
      pending supervisory review and approval. DIT officials informed us that they intend to
      implement corrective actions to address the firm’s recommendations. Such actions would
      provide DIT management greater assurance regarding the integrity of the FDIC’s laptop
      computer inventory. Therefore, we are not making recommendations related to this area.


Laptops Returned to the Vendor

      FDIC Circular 1380.3 requires that current and accurate records for the receipt, transfer,
      disposal, and adjustment of laptop assignments be maintained. Although Remedy®
      tracks the status of laptop computer deployments, the system does not provide a link
      between a laptop returned to the vendor and the replacement laptop to ensure that laptop
      inventory records are accurate.

      To illustrate, a laptop computer deployed to an FDIC employee would be coded as
      “deployed,” and a laptop being stored by DIT for future use would be coded in Remedy®
      as “in inventory.” Another code, “returned to vendor” was used for 426 FDIC laptops.
      According to DIT officials, a computer coded as “returned to vendor” indicates that the
      malfunctioning laptop was kept by the vendor and that the FDIC received a replacement
      laptop for which a separate record was created in the Remedy® inventory. However,
      Remedy® does not provide a crosswalk, for example, a code, to indicate which laptop the
      7
        Although the FDIC’s information systems do not fall within the SP 800-53 definition of federal
      information systems, we believe the guidance in that publication provides a best practice for the FDIC to
      consider in managing its information systems.
      8
        The firm’s report is entitled FDIC IT Asset Analysis.
      9
        Under the principle of least privilege, the information system enforces the most restrictive set of
      rights/privileges or accesses needed by users for the performance of specified tasks.


                                                           9
      vendor provided as the replacement laptop. Therefore, the FDIC does not have the
      records to adequately assure that the FDIC received a replacement laptop for each
      computer that was coded “returned to vendor.” DIT should establish procedures to track
      replacement laptop computers for those computers that have been returned to the vendor.


Recommendation on Procedures for Tracking Replacement Laptops

      We recommend that the CIO:

      (3) Establish procedures to track and record the replacement of laptop computers
          returned to the vendor for replacement or service.


CORPORATION COMMENTS AND OIG EVALUATION

      On March 7, 2008, the CIO and Director, DIT, provided a written response to the draft of
      this report. Management’s response is presented in its entirety in Appendix 2.
      Management concurred with our findings and recommendations.

      In response to recommendation 1, DIT stated that it will revise Circular 1380.3 as part of
      a larger asset management documentation project. In response to recommendation 2,
      DIT has already advised the DDC that all hard drives must be rendered physically
      disabled prior to being sent off-site for shredding. Furthermore, DIT is updating the
      documentation on hard drive disposal for all equipment and updating procedures to
      render all hard drives inoperable prior to storage for disposal. In response to
      recommendation 3, DIT will develop procedures for tracking assets returned to the
      vendor and replacement assets sent to the FDIC.

      A summary of management’s response to the recommendations is in Appendix 3. DIT’s
      planned actions are responsive to our recommendations. The recommendations are
      resolved but will remain open until we determine that the agreed-to corrective actions
      have been completed and are responsive.




                                                  10
                                                                                          APPENDIX 1

                              OBJECTIVE, SCOPE, AND METHODOLOGY


Objective

      The audit objective was to determine whether the FDIC had established and implemented
      adequate controls over the replacement and disposal process for laptop computers. We
      conducted this performance audit from September 2007 through January 2008 in accordance
      with generally accepted government auditing standards. Those standards require that we plan
      and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
      our findings and conclusions based on our audit objectives. We believe that the evidence
      obtained provides a reasonable basis for our findings and conclusions based on our audit
      objectives.


Scope and Methodology

      The audit included an assessment of the FDIC’s plans and procedures for the replacement and
      disposal of laptop computers during 2007. We conducted fieldwork at FDIC headquarters
      locations in Arlington, Virginia; and Washington, D.C.; FDIC regional and field offices in
      Atlanta, Georgia; New York, New York; and Chicago, Illinois, and one additional field office in
      Madison, Wisconsin. We conducted tests of the FDIC’s laptop deployment for the FDIC’s field
      offices in Eau Claire, Appleton, and Milwaukee, Wisconsin; and Shelby, Alabama.

      To accomplish the audit objective, we performed the following:

            •   Reviewed various guidelines as follows:

                   -   Division of Information Technology Guidelines for New Laptop Deployment,
                       dated July 2007.

                   -   FDIC Circular 3200.1, Disposition of Corporation-Owned Property, dated
                       August 25, 2004.

                   -   FDIC Circular 1360.9, Protecting Sensitive Information, dated April 30, 2007.

                   -   FDIC Circular 1380.3, Laptop Computer Assignments, Safeguards, and Asset
                       Management, dated April 13, 1999.

                   -   FISMA.

                   -   NIST SP 800-88, Guidelines for Media Sanitization, dated September 2006.

                   -   NIST SP 800-53 Revision 1, Recommended Security Controls for Federal
                       Information Systems, dated December 2006.




                                                       11
                                                                                            APPENDIX 1


          •   Interviewed FDIC employees and SRA contractors regarding the FDIC’s procedures for
              the replacement and deployment of laptop computers.

          •   Verified the storage procedures for 100 percent of the hard drives at the locations noted
              earlier.

          •   Verified receipt of the 3,905 Lenovo T60 laptop computers, purchased under SRA
              Purchase Order 9010166, to the vendor’s shipping confirmations.

          •   Reconciled the vendor’s shipping confirmations for the 3,905 laptop computers to the
              FDIC’s Remedy® inventory.

          •   Verified the completion of signed hand bills for the deployment of 500 judgmentally
              sampled laptops.

          •   Verified the accuracy of signed hand bills for the deployment of 100 judgmentally
              sampled laptops.

          •   Observed DIT’s hard drive disposition procedures at FDIC regional and field offices.

          •   Reconciled hard drive inventory records to disposal records for used laptops.

          •   Reconciled documentation for used laptop shipments to with the FDIC’s records.

          •   Verified background investigations for SRA personnel.

          •   Observed hard drive shredding procedures by the FDIC’s DDC.

          •   Assessed DIT’s procedures for tracking laptop computers returned to the vendor.

      In addition, prior to our audit, DIT contracted for a review of the FDIC’s IT asset inventory
      control process, including the verification of selected aspects of the IT asset inventory, such as
      the laptop computer inventory controls. Accordingly, we did not perform audit procedures
      already covered by that review.


Internal Control

      We evaluated the effectiveness of controls in place for the replacement and disposal of laptop
      computers. These controls included policies and procedures contained in many of the documents
      listed above. In the absence of written policies, we relied on interviews with, and information
      obtained from, DIT officials.

      DIT did not separately inventory the hard drives of the FDIC’s laptop computers. The FDIC
      deployed Pointsec in 2007 to automatically encrypt sensitive information stored on laptop
      computer hard drives. Such software significantly reduces the risk of a compromise of sensitive
      information whenever a laptop computer is lost or stolen.
                                                       12
                                                                                              APPENDIX 1


Reliance on Computer-processed Information

      For purposes of the audit, we did not rely on computer-processed information to support our
      audit findings, conclusions, or recommendations. Our assessment centered on records related to
      the replacement and disposal of laptop computers and hard drives. In addition, DIT had
      contracted with an independent firm to test data and selected information systems controls in the
      Remedy® Asset Management Module, which contains an inventory of FDIC laptop computers.
      Accordingly, we did not consider it necessary to develop procedures to assess those controls.


Compliance with Laws and Regulations, Government Performance and Results Act, and Fraud or
Abuse

      We reviewed applicable laws and regulations related to the FDIC’s replacement and disposal
      process for laptop computers. We found no instances where the FDIC was not in compliance
      with applicable laws and regulations, but we did note areas for improvement as described in the
      report.

      We reviewed DIT’s performance measures under the Government Performance and Results Act,
      Public Law 103-62. We also reviewed the FDIC’s 2007 Annual Performance Plan, the FDIC’s
      Strategic Plan for 2005-2010, and DIT’s Balanced Scorecard to determine whether the FDIC has
      established goals related to its laptop replacement and disposal process. Neither the annual plan
      nor the strategic plans include goals, objectives, or indicators specifically related to the subject of
      our audit.

      We assessed the risk of fraud and abuse related to the audit objective in the course of evaluating
      audit evidence.




                                                        13
     APPENDIX 2




15
                                                                                                   APPENDIX 3

                     MANAGEMENT RESPONSE TO RECOMMENDATIONS


This table presents the management response on the recommendations in our report and the
status of the recommendations as of the date of report issuance.
    Rec. No.        Corrective Action: Taken               Expected        Monetary     Resolved: a        Open or
                          or Planned                      Completion       Benefits     Yes or No          Closed b
                                                              Date
       1       DIT will revise Circular 1380.3 to         Dec. 31, 2008      N/A           Yes              Open
               reflect the FDIC’s current business
               environment for managing its laptop
               computer inventory and to define
               policy for the disposal of hard drives.

       2       DIT is updating the documentation         April 15, 2008      N/A           Yes              Open
               on hard drive disposal for all
               equipment. Specifically, DIT is
               reviewing and updating procedures to
               state that all hard drives must be
               rendered inoperable prior to storage
               for disposal.

       3       DIT will develop procedures for           August 31, 2008     N/A           Yes              Open
               tracking assets returned to the vendor
               and replacement assets sent to the
               FDIC.

a
    Resolved - (1) Management concurs with the recommendation, and the planned corrective action is consistent
                   with the recommendation.
               (2) Management does not concur with the recommendation, but planned alternative action is acceptable
                   to the OIG.
               (3) Management agrees to the OIG monetary benefits, or a different amount, or no ($0) amount.
                   Monetary benefits are considered resolved as long as management provides an amount.
b
    Once the OIG determines that the agreed-upon corrective actions have been completed and are responsive, the
    recommendation can be closed.




                                                           16
